CERTIFICATE OF SERVICE
No. 19-891
John Lehmann
Petitioner(s)
v.
Nicole Haims
Respondent(s)
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
On the undersigned date, I served the parties in the above captioned matter with the JOHN
LEHMANN REPLY BRIEF OF PETITIONERS, by mailing three (3) true and correct copies of the same by
USPS Priority mail, postage prepaid for delivery to the following addresses:
Lisa Zeiderman, Esq.
Miller Zeiderman & Wiederkehr LLP
140 Grand Street, 5th Floor
White Plains, NY 10601
(914) 455-1000
lz@mzw-law.com
Counsel for Nicole Haims

Cambareri, Esq.
Guttridge & Cambareri, PC
222 Bloomingdale Road, Suite 301
White Plains, NY 10605
(914) 425-5226
Counsel for Child (0.L.)

April 1, 2020
SCP Tracking: Lehmann-15 Bank Street, Apt 109D-Cover Tan

